BECKER GALLAGHER
Briefs

and

DoNNA ). WOLF, J.D.
JULIE

Records

CERTIFICATE OF SERVICE
I, Donna J. Wolf, hereby certify that 1 unbound and
40 copies of the foregoing Reply Brief for Petitioner in
19-539, Office of Recovery Services v. John R. Latham,
were sent via Next Day Service to the U.S. Supreme
Court, and 3 copies were sent via Next Day Service
and e-mail to the following parties listed below, this
23rd day of December, 2019:
!SHAN KHARSHEDJI BHABHA
JENNER AND BLOCK LLP

1099 New York Ave NW, Suite 900
Washington, DC 20001
(202) 637-6327
IBhabha@jenner.com
PAUL R. SMITH
MICHAEL JUDD
JONES WALDO

170 S. Main Street, Suite 1500
Salt Lake City, UT 84101-1644
(801) 37&-9801
psmith@joneswaldo.com
mjudd@joneswaldo.com

Counsel for Respondent

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

8790 Governor's Hill Drive

Franklin Square

(800) 890.5001

Suite 102

1300 I Street, NW, Suite 400E

www.beckergallagher.com

Cincinnati, Ohio 45249

Washington, DC 20005

A.

KERSHNER, J.D.

SEAN D. REYES
Utah Attorney General
TYLER R. GREEN
Utah Solicitor General
Counsel of Record
STANFORD E. PURSER
Deputy Solicitor General

WILLIAM W. MILLER
TONY S. LEBLANC

Assistant Attorneys General
350 N. State Street, Suite 230
Salt Lake City, UT 84114-2320
(801) 538-9600
tylergreen@agutah.gov

Counsel for Petitioner

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on December 23, 2019.

Donna J. Wolf
Becker Gallagher Legal P ubli hing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.
Date:
Notary Public
[seal]

